MARCH 1, 2012
  AUDIT REPORT




                                                      OFFICE OF AUDITS




   AUDIT OF NASA’S PROCESS FOR TRANSFERRING
      TECHNOLOGY TO THE GOVERNMENT AND
               PRIVATE SECTOR




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-12-013 (ASSIGNMENT NO. A-11-017-00)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

FY           Fiscal Year
IPO          Innovative Partnerships Office
NPR          NASA Procedural Requirements
NTR          New Technology Report
NTTS         NASA Technology Transfer System


                                               REPORT NO. IG-12-013
MARCH 1, 2012




                                                                                             OVERVIEW

          AUDIT OF NASA’S PROCESS FOR TRANSFERRING
       TECHNOLOGY TO THE GOVERNMENT AND PRIVATE SECTOR

                                                                                               The Issue

  The National Aeronautics and Space Act of 1958 directs NASA to preserve the role of
  the United States as a leader in spaceflight, aeronautical science, and technology. One
  way in which NASA seeks to meet this directive is through the development and
  demonstration of new technologies that foster novel approaches to NASA’s current and
  future missions. 1

  Creating new technologies to support programs is fundamental to NASA’s mission, and
  facilitating the transfer of these technologies to other government agencies, industry, and
  international entities to generate U.S. commercial activity is one of the Agency’s strategic
  goals. 2 Technology transfer promotes commerce, encourages economic growth,
  stimulates innovation, and offers benefits to the public and industry. 3 For example,
  aerodynamics research conducted at Dryden Flight Research Center led to a method to
  decrease the “box-shaped” aerodynamic drag of trucks by 40 percent, thereby increasing
  fuel efficiency. Truck manufacturers that have incorporated these design improvements
  are realizing 15 to 25 percent more fuel efficiency at highway speeds. Demonstrating the
  commercial value of NASA’s technologies can also lead to greater support from
  Congress and the public for Agency programs and projects. In addition, individuals who
  identify new technologies may gain name recognition, monetary awards, and patents.

  The Stevenson-Wydler Technology Innovation Act of 1980 and Federal Technology
  Transfer Act of 1986 further promote the transfer of federally funded research and
  technology to state and local governments and the commercial sector. 4 More recently, in
  October 2011, the President directed Federal agencies to accelerate technology transfer

  1
      NASA’s definition of new technology is very broad and includes any new and useful processes,
      machines, manufacture, or compositions of matter, as well as computer programs, whether or not they
      can be copyrighted.
  2
      NASA’s 2011 Strategic Plan is available at http://www.nasa.gov/pdf/516579main_NASA2011
      StrategicPlan.pdf (accessed February 29, 2012).
  3
      For the purposes of this report, “technology transfer” refers to both transfer and commercialization and
      includes NASA’s efforts to transfer technology to other government entities and the private sector.
  4
      The Stevenson-Wydler Technology Innovation Act of 1980 requires the Federal government to ensure
      the full use of the results of the Nation’s Federal investment in research and development. The Federal
      Technology Transfer Act of 1986 amended the Stevenson-Wydler Act and allowed Government-owned,
      Government-operated laboratories to enter into cooperative research and development agreements with
      universities and the private sector.



REPORT NO. IG-12-013
                                                                                                      OVERVIEW



     efforts and support private sector commercialization of new technologies resulting from
     federally funded research. 5

     NASA’s Space Technology Program in the Office of the Chief Technologist is
     responsible for promoting and supporting the development of new technologies and
     administering the Agency’s technology transfer and commercialization process. 6

     The following four subprograms play a role in this process:

           •   The Small Business Innovation Research and the Small Business Technology
               Transfer Programs stimulate technological innovation and increase participation
               by small and disadvantaged businesses in federally funded research and
               development programs.

           •   The Crosscutting Space Technology Development Program focuses on maturing
               flight readiness capabilities that advance future space missions such as the Edison
               Small Satellite Demonstration Missions designed to improve or create new small
               spacecraft capabilities for advanced satellite communication.

           •   The Exploration Technology Development Program seeks to advance
               development of new technologies to enable human missions beyond low Earth
               orbit.

           •   The Partnership Development and Strategic Integration Program provides funding
               for the transfer and commercialization of NASA-developed technologies,
               interagency technology coordination, and intellectual property management and
               seeks out partnership opportunities with other government agencies and industry.

     Through these four subprograms, the Office of the Chief Technologist is responsible for
     managing technology investments across NASA and for developing innovative
     technology partnerships, technology transfer, and commercialization. The Office also
     serves as the point-of-contact with other government agencies, academia, and the
     commercial aerospace community. Each NASA Center has a Center Chief Technologist
     who, together with their Center-based Innovative Partnerships Office (IPO), is expected
     to coordinate with program and project managers, foster innovative technology
     partnerships with other government agencies and commercial entities, and take the lead
     in developing technology transfer and commercialization opportunities.

     Under NASA’s process, employees and contractors who develop new technologies
     (innovators) report, document, and identify the potential commercial applications of their


     5
         Presidential Memorandum, “Accelerating Technology Transfer and Commercialization of Federal
         Research in Support of High-Growth Businesses,” October 28, 2011.
     6
         NASA’s current technology transfer policies focus on technologies in which NASA has intellectual
         property rights or those that have potential patentability.



ii                                                                                     REPORT NO. IG-12-013
OVERVIEW



  work by submitting New Technology Reports (NTRs). 7 New Technology
  Representatives review the NTRs for completeness and enter them into the NASA
  Technology Transfer System (NTTS), an Agency-wide management information tool the
  IPO uses to oversee the NTR process. Once entered into NTTS, the IPO and Patent
  Counsel review the NTR to determine its technical merit. Based on these assessments,
  NASA may consider the new technology for patenting, publication in NASA Tech
  Briefs – a monthly magazine and website that feature reports of innovations developed by
  NASA and its industry partners – or other release to the public (e.g., software). 8,9 The
  IPO and Patent Counsel are involved in determining if the information in the NTR is
  suitable for release to the public.

  Since fiscal year (FY) 2004, funding for NASA’s technology transfer efforts has
  decreased by 68 percent, from $60 million in 2004 to $19.2 million in FY 2012. In
  addition, personnel resources dedicated to the technology transfer effort have similarly
  declined. For example, since FY 2003 the number of patent attorneys at the Centers has
  dropped from 29 to 19 and Headquarters IPO staff has decreased from 13 in FY 2010 to
  just 2 in FY 2012.

  Because technology transfer is fundamental to NASA’s mission and strategic goals, the
  Office of Inspector General initiated this audit to examine whether NASA was effectively
  identifying and planning for the transfer of technology developed within its programs to
  outside entities. The primary locations for this audit were NASA Headquarters, Ames
  Research Center, Dryden Flight Research Center, Goddard Space Flight Center, and
  Johnson Space Center. Details of the audit’s scope and methodology are in Appendix A.

                                                                                                Results

  NASA’s project managers and IPO personnel at the NASA sites we reviewed could
  improve their effectiveness in identifying and planning for the transfer and
  commercialization of technologies developed as part of Agency projects. Although
  technology transfer and commercialization does occur, we found a general lack of
  awareness of NASA policy governing the process. 10 Specifically, personnel we
  interviewed did not realize the transfer potential of some technological assets, and project
  managers did not develop and IPO personnel did not assist in the development of
  Technology Commercialization Plans (Commercialization Plans). 11 Furthermore,
  7
       NTRs may be submitted via NASA’s Technology Reporting website (e-NTR) https://ntr.ndc.nasa.gov/
       (accessed February 29, 2012) or using NASA Form 1679.
  8
       See NASA TechFinder, Software Search, at http://technology.nasa.gov/?s=software (accessed
       February 29, 2012).
  9
       See NASA Tech Briefs at http://www.techbriefs.com/ (accessed February 29, 2012).
  10
       NASA Procedural Requirements (NPR) 7500.1, “NASA Technology Commercialization Process
       w/Change 1 (4/9/04).”
  11
       A Technology Commercialization Plan outlines a strategy for promptly identifying and reporting new
       technologies and innovations, developing and implementing commercial partnerships, and evaluating
       and reporting on the success of those partnerships.


REPORT NO. IG-12-013                                                                                        iii
                                                                                                           OVERVIEW



     personnel lacked awareness of the New Technology Reporting process and were not
     using NTRs to identify potential technology benefits. In addition, we found that the
     NASA Chief Technologist, Center Chief Technologists, and Center IPOs have not
     effectively implemented the Agency’s Technology Commercialization Policy
     requirements and need to conduct more outreach to NASA project managers. The
     decrease in resources since FY 2004 has contributed to this condition.

     Consequently, NASA has missed opportunities to transfer technologies from its research
     and development efforts and to maximize partnerships that could provide additional
     resources, and industry and the public have not fully benefited from NASA-developed
     technologies. For example:

            •   Algorithms designed to enable an aircraft to fly precisely through the same
                airspace on multiple flights – a development that could have commercial
                application for improving the autopilot function of older aircraft – was not
                considered for technology transfer because project personnel were not aware of
                the various types of innovations that could be candidates for the program. 12

            •   Project personnel failed to capitalize fully on a unique NASA facility used for
                aeronautic testing services, the Flight Loads Laboratory at Dryden, and had to
                turn down commercial requests, because they did not recognize the facility as a
                transferable technology and consequently had not developed a Commercialization
                Plan to manage growing customer demand.

            •   Project personnel did not form partnerships with industry end-users who are a
                potential source of funding because they did not realize that transfer and
                commercialization planning could lead to such partnerships. As a result,
                managers of a precision landing and hazard avoidance project failed to seek
                commercial partnerships that could have provided additional funding to help the
                project mature.

     NASA Personnel Lack Awareness of the Agency’s Technology Transfer Policy
     Requirements. NASA’s technology transfer policy, NPR 7500.1, states that early
     assessment and planning is crucial for creating commercial partnerships. Accordingly,
     the policy requires project personnel to develop a Commercialization Plan during a
     project’s formulation phase. 13 However, we interviewed 38 personnel (15 IPO officials,
     2 Center Chief Technologists, 21 project managers) from 4 Centers, and found that none
     of them had ever developed or assisted with the development of a Commercialization
     Plan. Moreover, none of these individuals was familiar with the NASA policy governing
     12
          An algorithm is a step-by-step procedure that is used in mathematics and computer science. Algorithms
          use a defined number of steps for calculations, data processing, and automated reasoning.
     13
          NASA policy notes that program and project life cycles have two phases: formulation and
          implementation. NASA defines formulation as the identification of how the program or project supports
          the Agency’s strategic needs, goals, and objectives; the assessment of feasibility, technology, concepts;
          risk assessment and acquisition strategies; and the preparation of plans, budgets, and schedules essential
          to the success of a program or project.



iv                                                                                          REPORT NO. IG-12-013
OVERVIEW



  technology transfer and commercialization. The Chief Technologist at NASA
  Headquarters, who is responsible for developing and overseeing the implementation of
  NASA’s technology commercialization policy, conceded that working knowledge of
  NPR 7500.1 among NASA personnel might be lacking. 14

  The NPR also directs the Center IPOs to assist project managers with developing
  Commercialization Plans. Developing such a plan is an important step for project
  managers because it:

         •   provides managers with a methodology for identifying potential commercial
             partners;

         •   allows managers to monitor and mature plans throughout the project’s life cycle
             with targeted end-users in mind;

         •   allows NASA technological assets to reach the commercial sector at an
             accelerated pace;

         •   integrates the project’s technical knowledge with the marketing expertise of the
             IPO;

         •   expands the opportunity for creating working and funding partnerships with
             industry for technology development and identification of end-users for the
             technology; and

         •   facilitates the formation of partnerships with commercial entities that may be able
             to contribute additional funding, staffing, and expertise to help sustain project
             development during periods of reduced Federal funding.

  However, none of the 21 projects we reviewed had developed a Commercialization Plan.
  We believe this occurred, in part, because the program and project management policies
  managers use throughout a project’s acquisition life cycle contain minimal references to
  technology transfer and commercialization. Specifically, NPR 7120.5D and NPR 7120.8
  do not emphasize the importance of the Commercialization Plan and only require
  managers to describe their plan for technology transfer as a subpart of the program and
  project plan. 15 Other contributing factors are that the Agency had not allocated resources
  specifically for the planning, development, and implementation of Commercialization
  Plans and had not trained project managers concerning the technology commercialization

  14
       The Chief Technologist we interviewed has since left NASA and a new Chief Technologist was
       appointed after our fieldwork was completed.
  15
       NASA’s Chief Engineer is responsible for NPR 7120.5D, “NASA Space Flight Program and Project
       Management Requirements,” March 6, 2007, and NPR 7120.8, “NASA Research and Technology
       Program and Project Management Requirements,” February 5, 2008. NASA Memorandum 7120-81,
       “NASA Space Flight Program and Project Management Requirements,” was issued on September 22,
       2009, as an interim directive while NPR 7120.5D was being revised. Requirements of NPR 7120.5D
       discussed in this report were retained in the interim directive.



REPORT NO. IG-12-013                                                                                    v
                                                                                                     OVERVIEW



     process. Furthermore, the Presidential Memorandum’s addition of requirements to
     develop plans and establish performance goals to improve the Agency’s technology
     transfer and commercialization process will further strain the available resources
     dedicated to NASA’s technology transfer efforts.

     Technological Assets Are Not Consistently Identified or Fully Understood. NASA
     policy defines a technological asset to include technologies, innovations, facilities, and
     expertise. However, NASA personnel we interviewed – including IPO representatives
     and Center Chief Technologists – were not aware of or did not have a clear understanding
     of the range of technologies that qualify as technological assets. Project managers
     focused primarily on hardware items such as lightweight fiber-optic sensors used for in-
     flight stress monitoring of aircraft structures, while overlooking other types of assets such
     as algorithms, software, and facilities. These oversights resulted in missed opportunities
     for a wider range of technology to be transferred and commercialized.

     Innovators Lack Awareness of New Technology Reporting Process. We randomly
     selected 36 NTRs out of the 2,034 submitted to NTTS over the past 3 years and
     interviewed the innovator responsible for developing the technology described in each
     NTR. We found that none of the innovators had a clear understanding of the New
     Technology Reporting process. 16 Specifically, innovators did not understand at what
     point in the process they should file NTRs, what is considered reportable technology, and
     what to expect after an NTR is submitted. In addition, we found that none of the
     innovators had received training on the NTR process.

     We concluded that a lack of training and understanding of the value of filing an NTR
     may have resulted in the underreporting of new technologies. For example, one of the
     innovators stated that he was discouraged from filing additional NTRs because he did not
     understand the process. Another innovator stated that he only filed an NTR because it
     was a contractual requirement. Consequently, NASA likely is not maximizing the full
     potential of its research and development efforts and losing the potential benefit of
     royalty income generated from patented technology.

     New Technology Reports Are Inaccessible. As previously discussed, IPO personnel
     and NASA Patent Counsel review NTRs to determine whether technology should be
     considered for patenting, publication in NASA Tech Briefs, or other public release. If
     NASA decides not to pursue any of these options, the NTR remains in NTTS, which is
     restricted and thus largely inaccessible to other NASA personnel. We found that of the
     12,644 NTRs submitted by civil service and contractor personnel from FY 2004 through
     FY 2011, 6,396 (50 percent) are categorized as inactive and therefore are not easily
     accessible. Although IPO personnel stated that inactive NTRs might eventually result in
     Tech Briefs articles or software releases, they could not articulate for us the difference
     between inactive NTRs that are eventually published or released and those that are not.

     16
          Eight of the NTRs we selected had been submitted by someone other than the innovator, sometimes
          without the innovator’s knowledge.



vi                                                                                     REPORT NO. IG-12-013
OVERVIEW



  Although NASA officials decided not to pursue patents for or make the information in
  these NTRs publicly available, they may still contain information that could benefit other
  innovators and project managers. For example, researchers filed an NTR in February
  2010 for a solar thermoelectric power system designed to provide recyclable, non-toxic,
  on-demand solar energy that costs less than solar panels currently in use and works
  during off-peak hours without the use of storage batteries. NASA did not pursue a patent
  on this technology because the system was not fully developed or tested. Although this
  technology is not mature and may not have commercial potential in its present state, the
  NTR may contain valuable information that could encourage further technology
  development. Maintaining this information in a restricted database hinders NASA’s
  ability to build on the information in these reports.

                                                               Management Action

  NASA can improve its technology transfer and commercialization efforts and better
  advance its strategic goals by ensuring that project managers, IPO personnel, and
  innovators are more aware of the Agency’s requirements regarding technology transfer.
  We recommended that the Chief Technologist implement procedures to ensure that
  project managers and IPO personnel are held accountable to the requirements detailed in
  NPR 7500.1 to conduct a commercial assessment of technologies and prepare
  Commercialization Plans. In addition, the Chief Technologist should provide periodic
  training to NASA personnel regarding the technology transfer process, including the
  types of assets that qualify and the specifics of the NTR process. Further, to help ensure
  that program and project managers can properly implement technology transfer
  requirements and meet the intent of the October 2011 Presidential Memorandum, we
  recommend that the Chief Technologist reassess the allocation of resources for
  technology transfer. In addition, the Chief Technologist should coordinate with the Chief
  Engineer to incorporate appropriate language in NPR 7120.5 and NPR 7120.8 that
  emphasizes the importance of developing Commercialization Plans. Lastly, the Chief
  Technologist should coordinate with the General Counsel to ensure that Center IPOs and
  Patent Counsel review all NTRs and make them accessible to NASA project managers
  and innovators as appropriate.

  In response to a draft of this report, the Chief Technologist concurred or partially
  concurred with all of our recommendations, stating that his office is committed to
  improving the Agency’s ability to identify, capture, and transfer technology.
  Specifically, the Chief Technologist stated that his office has begun reviewing and
  revising NPR 7500.1 to ensure that the Agency’s commercialization policy reflects the
  best practices for Federal technology transfer and will ensure that any revisions are
  included in other Agency acquisition planning and program management policies and
  processes. The Chief Technologist also stated that his office will incorporate training
  requirements in the updated NPR 7500.1; develop training materials and provide periodic
  training to project managers, IPO personnel, and innovators; conduct a “zero base”
  review of personnel and the funding requirements needed to implement the updated



REPORT NO. IG-12-013                                                                           vii
                                                                                       OVERVIEW



       technology transfer and commercialization requirements; and work with the Office of
       General Counsel to develop strategies for modifying NTTS to allow for the segregation
       of restricted information and provide greater access to information on reported, but
       unpatented technologies.

       Lastly, in response to our recommendation to revise NPR 7120.5 and NPR 7120.8 to
       emphasize the importance of developing Commercialization Plans, the Chief
       Technologist proposed to work with the Chief Engineer to include appropriate language
       in the program and project management handbook that accompanies NPR 7120.5 to
       provide context and guidance for the development of Technology Commercialization
       Plans. We consider the Chief Technologist’s proposed actions to be responsive to our
       recommendations; therefore, the recommendations are resolved and will be closed upon
       completion and verification of these actions. Management’s full response to the draft
       report is reprinted in Appendix B.




viii                                                                       REPORT NO. IG-12-013
MARCH 1, 2012




                                                        CONTENTS

  INTRODUCTION
      Background _________________________________________ 1
      Objectives __________________________________________ 5

  RESULTS
      NASA Personnel Lack Awareness of the Agency’s Technology
        Transfer and Commercialization Requirements ____________ 6
      NASA Needs to Improve Its New Technology Reporting and
        Dissemination Process _____________________________ 12

  APPENDIX A
      Scope and Methodology _______________________________ 21
      Review of Internal Controls ____________________________ 22
      Prior Coverage ______________________________________ 22

  APPENDIX B
      Management Comments ______________________________ 23

  APPENDIX C
      Report Distribution ___________________________________ 28




REPORT NO. IG-12-013
MARCH 1, 2012




                                                                                      INTRODUCTION


Background

  NASA is the Nation’s leading Government organization for spaceflight and aeronautical
  research projects. 17 The National Aeronautics and Space Act of 1958 charges NASA
  with preserving the role of the United States as a leader in spaceflight, aeronautical
  science, and technology and directs the Agency to provide for “the widest practicable and
  appropriate dissemination of information . . .” resulting from its activities.

  Since 1980, Federal lawmakers have legislated and expressed continued support for the
  transfer of technology resulting from federally funded research and development efforts.
  For example, the Stevenson-Wydler Technology Innovation Act of 1980 requires that the
  Federal Government ensure the full use of the results of the Nation’s Federal investment
  in research and development. The Act also requires each Federal laboratory to establish
  an Office of Research and Technology Applications and the laboratory director to ensure
  that efforts to transfer technology are included in laboratory job descriptions, employee
  promotion policies, and evaluation of the job performance of scientists and engineers.
  The Federal Technology Transfer Act of 1986 amended the Stevenson-Wydler Act and
  allowed Government-owned and Government-operated laboratories to enter into
  cooperative research and development agreements with universities and the private
  sector.

  More recently, on October 28, 2011, the President issued a memorandum that requires all
  Federal agencies to develop plans that establish performance goals to improve the
  timeliness and increase the number of effective technology transfer and
  commercialization activities in partnership with non-Federal entities, including private
  firms, research organizations, and non-profit entities. 18 The memorandum directs that the
  agencies’ plans cover the 5-year period from 2013 through 2017.

  Technology Transfer from NASA’s Research and Development Projects

  Technology transfer promotes commercial activity, encourages economic growth,
  stimulates innovation in business and commerce, and offers environmental and social
  benefits to the public and industry. 19 Since 1976, more than 1,750 technology transfer
  17
       Projects, as defined in this audit, include spaceflight and aeronautic research and development projects
       and activities, technology demonstration projects and activities, and non–research and development
       projects and activities in engineering and science (life science and non–life science disciplines).
  18
       Presidential Memorandum, “Accelerating Technology Transfer and Commercialization of Federal
       Research in Support of High-Growth Businesses,” October 28, 2011.
  19
       For the purpose of this report, “technology transfer” refers to technology transfer and commercialization
       and NASA’s efforts to transfer new technology developed in its projects to other government entities and
       the private sector.


REPORT NO. IG-12-013                                                                                               1
                                                                                                 INTRODUCTION



    successes have been documented in NASA’s Spinoff Magazine, including commercial
    applications in health and medicine, transportation, public safety, consumer goods,
    agriculture, environmental resources, computer technology, manufacturing, and energy
    conversion and use. 20 In just one example, aerodynamics aircraft research conducted at
    Dryden Flight Research Center led to a method to decrease the “box-shaped”
    aerodynamic drag of trucks by 40 percent, thereby increasing fuel efficiency. Truck
    manufacturers that have incorporated these design improvements are realizing 15 to
    25 percent more fuel efficiency at highway speeds. 21 Demonstrating the commercial
    value of NASA’s technologies can also lead to greater support from Congress and the
    public for Agency programs and projects. In addition, individuals who identify new
    technologies can benefit by gaining personal recognition, monetary awards, and patents.

    Oversight Responsibility

    NASA’s Office of the Chief Technologist is responsible for managing, promoting,
    coordinating, and tracking all technology investments across the Agency. The Office
    serves as the point of entry and contact with other government agencies, academia, and
    the commercial aerospace community.

    The Chief Technologist is responsible for managing the Space Technology Program,
    developing and executing innovative technology partnerships, technology transfer, and
    commercialization. The Space Technology Program comprises four subprograms that
    support the transfer of technology into and out of the Agency:

           •   The Small Business Innovation Research and the Small Business Technology
               Transfer Programs stimulate technological innovation and increase participation
               by small and disadvantaged businesses in federally funded research and
               development programs.

           •   The Crosscutting Space Technology Development Program focuses on maturing
               flight readiness capabilities that advance future space missions such as the Edison
               Small Satellite Demonstration Missions that are designed to improve or create
               new small spacecraft capabilities for advanced satellite communication.

           •   The Exploration Technology Development Program seeks to advance
               development of new technologies to enable human missions beyond low Earth
               orbit.

           •   The Partnership Development and Strategic Integration Program provides funding
               for the transfer and commercialization of NASA-developed technologies,


    20
         Spinoff Magazine is NASA’s publication that highlights the transfer of NASA technology to the private
         sector. Available at http://www.sti.nasa.gov/tto/index.html (accessed February 29, 2012).
    21
         NASA Aerodynamic Truck Studies. Available at http://www.nasa.gov/centers/dryden/news/FactSheets/
         FS-100-DFRC.html (accessed February 29, 2012).



2                                                                                       REPORT NO. IG-12-013
INTRODUCTION



             interagency technology coordination, and intellectual property management and
             seeks out partnership opportunities with other government agencies and industry.

  NASA’s Partnership Development and Strategic Integration Program provides funding
  for the Innovative Partnerships Office (IPO) to foster innovative technology partnerships
  and lead technology transfer and commercialization opportunities originating from
  NASA’s programs and projects. The IPO is responsible for engaging NASA Mission
  Directorates to gain awareness of new and developing NASA technologies and for
  technology transfer and commercialization, interagency coordination and joint activities,
  intellectual property management, and partnership opportunities with other government
  entities and commercial industry.

  Each NASA Center also has an IPO and a Chief Technologist responsible for carrying
  out at the Center level the same goals and responsibilities as their Headquarters
  counterparts.

  The IPOs are responsible for the following programmatic activities:
         1. Technology infusion, which provides funding and resources to commercial
            companies to develop technologies of interest to NASA.
         2. Technology transfer, which includes the commercialization, licensing, or other
            transfer of NASA-owned or -originated technology to state and local governments
            and the private sector.
         3. Intellectual property management, which facilitates the protection of
            commercially valuable inventions.
         4. Implementation of NASA’s Prize Authority. 22
         5. Support for NASA’s initiative in science, technology, engineering, and
            mathematics education.
         6. Support for NASA’s outreach activities by publishing and publicly promoting
            NASA technology spinoffs.
         7. Support for professional development by providing opportunities for training in
            technology transfer.
         8. Support for Agency reporting requirements and maintenance of appropriate
            metrics on innovative partnership program activities.




  22
       The National Aeronautics and Space Act, Sec. 20144 defines Prize Authority as a program to
       competitively award cash prizes to stimulate innovations.



REPORT NO. IG-12-013                                                                                3
                                                                                                    INTRODUCTION



    NASA’s Technology Commercialization Policy

    NASA’s technology transfer and commercialization policy is documented in NASA
    Procedural Requirements (NPR) 7500.1, “NASA Technology Commercialization Process
    w/ Change 1 (4/9/04).” The policy requires all NASA project managers to consider
    possibilities for commercialization during the formulation phase of a project’s life cycle
    and, in coordination with the IPO, develop commercialization strategies and plans. 23 It
    also requires the reporting of new technologies and inventions, including any invention,
    discovery, improvement, or innovation that was either conceived or first introduced into
    practice in the performance of NASA work. Specifically, program and project managers
    are required to collaborate with the IPO to:

           •   determine commercial potential and develop a Technology Commercialization
               Plan (Commercialization Plan);

           •   develop and report new technologies and innovations in the NASA Technology
               Transfer System (NTTS);

           •   develop and implement partnerships; and

           •   identify and report success stories.

    NASA employees and contractors who develop new technologies (innovators) report,
    document, and identify the potential commercial applications of their work by submitting
    New Technology Reports (NTRs). 24 New Technology Representatives review NTRs for
    completeness and enter them into NTTS, the Agency-wide management information tool
    the IPO uses to administer the NTR process. Once entered into NTTS, the IPO and
    Patent Counsel review the NTR to determine its technical merit. 25 Based on these
    assessments, NASA may consider the new technology for patenting or publication in
    NASA Tech Briefs, a monthly magazine and website that features reports of innovations
    developed by NASA and its industry partners and contractors. 26 The IPO and Patent
    Counsel also determine if the information in the NTR should be made available to the
    public. If the IPO and Patent Counsel take no action, the process ends with the NTR
    remaining in NTTS categorized as inactive. According to IPO personnel, inactive NTRs
    may eventually result in Tech Briefs articles or software releases. However, they could

    23
         NASA policy notes that program and project life cycles have two phases: formulation and
         implementation. NASA defines formulation as the identification of how the program or project supports
         the Agency’s strategic needs, goals, and objectives; the assessment of feasibility, technology, concepts;
         risk assessment and acquisition strategies; and the preparation of plans, budgets, and schedules essential
         to the success of a program or project.
    24
         NTRs may be submitted via NASA’s Technology Reporting website (e-NTR) https://ntr.ndc.nasa.gov/
         (accessed February 29, 2012) or using NASA form 1679.
    25
         Review of NTRs submitted by small entities (small business firms, colleges, universities, and non-profit
         organizations) can be delayed for up to 2 years because small entities can elect to retain title to an
         invention within 2 years of its disclosure.
    26
         See NASA Tech Briefs at http://www.techbriefs.com/ (accessed February 29, 2012).



4                                                                                          REPORT NO. IG-12-013
INTRODUCTION



  not articulate for us the difference between inactive NTRs that are eventually published
  or released and those that are not.

  Figure 1 illustrates NASA’s process for developing and reporting new technologies and
  innovations.

                           Figure 1. NASA’s NTR Reporting and Tracking Process

                                                                                               NTR gets
                                                               File Patent
                                                                                              published+

                                                                   YES                           YES

       Innovators                    NASA
                                                                                            Release NTR
       report new              intellectual prop.   YES         Patentable         NO                             NO       End
                                     rights
                                                                                              to public
       innovation
                                                                                                                       Legend
                                      NO
                                                                                                                                Decision
                                                                                                 Notify
                                     End*                                                      innovator                        End
                                                                                                                                Process
    *NTRs submitted by small entities may be held up to 2 years before a review is conducted by NASA.
    +Publications may include Tech Briefs articles, conferences, or software releases as a way to explore other
     technology transfer options.


  Resources for Technology Transfer

  NASA’s technology transfer budget has decreased from $60 million in fiscal year (FY)
  2004 to $19.2 million in FY 2012. In addition, the number of patent attorneys at the
  Centers has dropped since FY 2003 from 29 to 19 and the Headquarters IPO staff has
  decreased from 13 in FY 2010 to just 2 in FY 2012.


Objectives

  Because technology transfer is fundamental to NASA’s mission and strategic goals, the
  Office of Inspector General initiated this audit to examine whether NASA is effectively
  identifying and planning for the transfer of technology developed within its programs and
  projects to outside entities. We also reviewed internal controls as they relate to the audit
  topic. The primary audit locations were the Offices of the Chief Technologists at NASA
  Headquarters, Ames Research Center, Dryden Flight Research Center, Goddard Space
  Flight Center, and Johnson Space Center. See Appendix A for details of the audit’s
  scope and methodology, our review of internal controls, and a list of prior coverage.




REPORT NO. IG-12-013                                                                                                                       5
                                                                                         RESULTS




                           NASA PERSONNEL LACK AWARENESS OF THE
                              AGENCY’S TECHNOLOGY TRANSFER AND
                                COMMERCIALIZATION REQUIREMENTS

           NASA’s project managers and IPO personnel at the NASA sites we visited could
           improve their effectiveness in identifying and planning for the transfer and
           commercialization of technologies developed as part of Agency projects. We found
           a general lack of awareness of NASA’s policy governing technology transfer and
           commercialization. We also found that project managers did not develop and IPO
           personnel did not assist with the development of Commercialization Plans.
           Moreover, project managers we interviewed did not consistently recognize the
           transfer and commercialization potential of some types of NASA assets. A
           Commercialization Plan ensures a common understanding among project personnel
           of transfer and commercialization requirements and represents a documented plan
           for identifying potential partnerships. Without such plans, NASA may miss
           opportunities to transfer Agency-developed technologies to other government
           agencies and private industry.


Technology Commercialization Policy

    NPR 7500.1 states that early technology commercialization assessment and planning is
    essential for creating commercial partnerships and identifies the types of NASA
    technological assets that may have commercial applications, including technologies,
    innovations, facilities, and expertise. The policy specifies that during a project’s
    formulation phase, project managers – with direction and assistance from the IPO – are to
    develop a detailed Commercialization Plan. These plans:

       •   provide the project manager a methodology for identifying potential commercial
           partners and working with the IPO;

       •   allow project management to monitor and mature plans throughout the project’s
           life cycle with targeted end-users in mind;

       •   permit NASA technological assets to reach the commercial sector at an
           accelerated pace;

       •   integrate project technical knowledge with the marketing expertise of the IPO;

       •   expand the opportunity for creating working and funding partnerships with
           industry for technology development and identification of end-users for the
           technology; and



6                                                                        REPORT NO. IG-12-013
RESULTS



         •   facilitate the formation of partnerships with commercial entities that may be able
             to contribute additional funding, staffing, and expertise to help sustain project
             development during periods of reduced Government funding.


Project Managers Are Unaware of Policy Requirements

  We interviewed 38 NASA personnel (15 IPO officials, 2 Center Chief Technologists, and
  21 project managers) from Ames, Dryden, Goddard, and Johnson and found that none of
  them had ever developed or assisted in the development of a Commercialization Plan.
  Furthermore, project managers we spoke with had not conducted the required commercial
  assessments of candidate technologies and did not have a working knowledge of NASA’s
  policy governing technology transfer and commercialization. These individuals told us
  they were unaware that NASA policy required them to take these actions and that their
  Center’s Chief Technologists and IPO staff had not offered assistance in this area. They
  also reported that they had been allocated no resources for planning, development, and
  implementation of Commercialization Plans and had not received training on the
  Commercialization Plan process.

  The project managers we interviewed said they were using as management guides NPR
  7120.5D for spaceflight projects and NPR 7120.8 for research and technology projects. 27
  NPR 7120.5D states that managers should identify options for partnering and
  commercialization during the project’s formulation phase and requires that the project
  manager describe how the project will access technology requirements and identify
  opportunities to leverage technology development efforts. The NPR also requires
  managers to describe how the project’s plan meets the requirements of NPR 7500.1 –
  NASA’s technology commercialization policy. Although 7120.5D references NPR
  7500.1, none of the project managers we interviewed said they had ever developed a
  Commercialization Plan.

  Similarly, NPR 7120.8 requires that project managers develop a subplan within the
  overall project plan to identify opportunities for establishing partnerships with private
  industry, academia, or other governmental organizations. The NPR also establishes a
  standard funding structure to implement and manage technology transfer activities.
  However, unlike NPR 7120.5D, NPR 7120.8 does not identify NPR 7500.1 or require
  project managers to refer to the policy while developing their plans. The absence of an
  explicit link between NPR 7120.8 and the requirement to create a Commercialization
  Plan could partially explain the lack of understanding by project managers of this
  requirement.

  27
       NASA’s Chief Engineer is responsible for NPR 7120.5D, “NASA Space Flight Program and Project
       Management Requirements,” March 6, 2007, and for NPR 7120.8, “NASA Research and Technology
       Program and Project Management Requirements,” February 5, 2008. NASA Memorandum 7120-81,
       “NASA Space Flight Program and Project Management Requirements,” was issued on September 22,
       2009, as an interim directive while NPR 7120.5D was being revised. Requirements of NPR 7120.5D
       discussed in this report were retained in the interim directive.



REPORT NO. IG-12-013                                                                                    7
                                                                                           RESULTS



    We found several            Figure 2. Artist’s rendition of Precision Landing Technology for
    examples of projects        Lunar Surface Descent
    that may have missed
    opportunities to take
    advantage of outside
    sources of funding
    because project
    managers were not
    familiar with and did
    not understand the
    potential benefits of
    NASA’s technology
    commercialization
    process. For example,
    the project team for a
    precision landing and
                                Source: Autonomous Landing Hazardous Avoidance Technology
    hazard avoidance
                                Management Overview Presentation, November 9, 2010
    project (see Figure 2)
    was not aware of NASA’s technology commercialization policy and had not conducted a
    commercial assessment or developed a Commercialization Plan for the project.
    However, team members provided us with several examples from their work that could
    be considered new technologies with potential commercial application, such as
    technology to improve communication between aircraft and air traffic control that could
    be useful to the aviation community and technology to aid helicopter landings during dust
    storms, low cloud cover, fog, or other periods of low visibility that could be useful to the
    military. They also told us that they had sought additional NASA funding to mature
    these technologies but due to budget constraints had only received enough money to
    demonstrate that one of the developed technologies works. Project officials said they
    have struggled to maintain sufficient funding even for this limited work, and the project
    manager acknowledged that a commercial partner may have been able to address some of
    these funding shortfalls.


NASA Personnel Did Not Fully Understand the Range of Items and
 Functions that Qualify as Technological Assets

    According to NPR 7500.1, a technological asset includes technologies, innovations,
    facilities, and expertise. However, NASA personnel, including IPO representatives and
    Center Chief Technologists we interviewed, were not aware or did not have a clear
    understanding of the range of items and functions that qualify as technological assets.
    Project managers focused primarily on hardware items such as lightweight fiber-optic
    sensors used for in-flight stress monitoring of aircraft structures, while overlooking other
    types of technological assets such as algorithms, software, and facilities, thereby missing
    opportunities for these types of technologies to be transferred and commercialized.



8                                                                           REPORT NO. IG-12-013
RESULTS



  For example, one project team developed algorithms and software for the Gulfstream III
  aircraft that allow it to fly a synthetic aperture radar pod precisely through the same
  airspace on multiple flights (Figure 3). 28,29

  Figure 3. Photo of a NASA Gulfstream III aircraft                    The software and algorithms have
  carrying a synthetic aperture radar pod.                             application in future science
                                                                       missions and potential
                                                                       commercial application in helping
                                                                       to modernize the autopilot
                                                                       function on older aircraft and in
                                                                       other aviation research that
                                                                       requires a precision flight path.
                                                                       However, the project team did not
                                                                       consider these algorithms as
                                                                       innovations for commercialization
                                                                       because team members were not
                                                                       aware of the various types of
                                                                       innovations that could be
                                                                       candidates for technology
  Source: NASA                                                         transfer.

  In another example, project personnel from Dryden were unaware that a flight test facility
  used for project testing and development could be considered a technological asset. After
  discussing the specifics of NPR 7500.1, project personnel recognized that the Flight
  Loads Laboratory at Dryden (see Figure 4) is a technological asset and a candidate for
  commercialization.

  According to project personnel, they use the Flight Loads Laboratory to fulfill Agency
  and commercial customer requests to develop technologies and conduct tests such as
  analyzing the airflow over the wing of an aircraft, which can affect lift, drag, and
  ultimately fuel efficiency. However, the personnel stated that they do not have an
  adequate process in place to manage all of the customer requests for testing. The project
  personnel did not realize that they could have sought assistance from the IPO for the
  development of a Commercialization Plan that would have helped them devise a strategy
  for effectively managing the growing number of requests. The lack of resources and
  effective commercialization planning forced project personnel to turn down several
  requests from commercial medical and aviation businesses and resulted in multiple
  missed opportunities for this project to capitalize on this unique NASA facility as a
  technological asset.



  28
       The synthetic aperture radar is capable of penetrating soil and water up to approximately 2 inches below
       the surface and can detect and measure small changes in the Earth’s surface.
  29
       An algorithm is a step-by-step procedure that is used in mathematics and computer science. Algorithms
       use a defined number of steps for calculations, data processing, and automated reasoning.



REPORT NO. IG-12-013                                                                                              9
                                                                                               RESULTS




     Figure 4. Project testing of airflow (left photo, black section on left wing of the
     aircraft) at the NASA Flight Loads Laboratory at Dryden (right photo).




     Source: NASA

     We recognize that the transfer and commercialization of technology may occur outside of
     the process defined in NPR 7500.1, for example as with the Robonaut II project, which
     developed a robot through a commercial partnership between NASA and General Motors.
     Nevertheless, we believe that NASA is missing opportunities to transfer technology to
     outside entities because of a lack of understanding of and adherence to Agency policies
     regarding technology transfer and commercialization.


Recommendations, Management’s Response, and Evaluation of
  Management’s Response

To increase awareness of NASA’s technology transfer requirements so that the Agency can
better plan, promote, and accomplish the transfer and commercialization of technology
developed within NASA projects and programs, we made the following recommendations to
the Chief Technologist.

Recommendation 1. Develop and implement procedures to ensure that project managers,
IPO personnel, and Center Chief Technologists are accountable to the requirements detailed
in NPR 7500.1.

     Management’s Response. The Chief Technologist concurred, stating that his office has
     started the process of reviewing and revising NPR 7500.1 to ensure that the Agency’s
     commercialization policy reflects the best practices for Federal technology transfer.
     Furthermore, he stated that his office will work directly with the Office of the Chief
     Engineer, the Office of Procurement, the Office of General Counsel, the NASA Mission
     Directorates, and others to ensure appropriate implementation of the updated policy. The
     Chief Technologist expects to complete the revision of NPR 7500.1 by December 20,
     2012.

     Evaluation of Management’s Response. Management’s proposed actions are
     responsive; therefore, the recommendation is resolved and will be closed upon
     completion and verification of the corrective actions.


10                                                                                 REPORT NO. IG-12-013
RESULTS



Recommendation 2. Coordinate with the Chief Engineer to:

  a. provide specific language in NPR 7120.5 and NPR 7120.8 that emphasizes the
     importance of Commercialization Plans; and

  b. direct and ensure that project managers coordinate with the IPO regarding
     commercial assessments and development of Commercialization Plans.

  Management’s Response. The Chief Technologist partially concurred with our
  recommendation and proposed to work with the Chief Engineer to develop a section for
  the program and project management handbook that accompanies NPR 7120.5 to provide
  context and guidance for the development of Technology Commercialization Plans. The
  Chief Technologist expects to complete this action by December 20, 2012.

  Evaluation of Management’s Response. The Chief Technologist’s proposed action
  meets the intent of our recommendation; therefore, the recommendation is resolved and
  will be closed upon completion and verification of the proposed corrective action.

Recommendation 3. Provide periodic training to project managers, IPO personnel, and
Center Chief Technologists commensurate with the employee’s position, discipline, and
level of authority regarding NASA’s technology transfer and commercialization policies and
requirements, including instruction on the range of items, processes, and functions that
qualify as technological assets.

  Management’s Response. The Chief Technologist concurred, stating that his office will
  work with the Office of the Chief Engineer and the NASA Office of Human Resources to
  develop training materials for periodic training to project managers, IPO personnel, and
  Center Chief Technologists by February 1, 2013.

  Evaluation of Management’s Response. Management’s proposed actions are
  responsive; therefore, the recommendation is resolved and will be closed upon
  completion and verification of the corrective actions.




REPORT NO. IG-12-013                                                                         11
                                                                                                        RESULTS




                          NASA NEEDS TO IMPROVE ITS NEW TECHNOLOGY
                               REPORTING AND DISSEMINATION PROCESS

                We interviewed 36 innovators and found that none had a good understanding of
                NASA’s New Technology Reporting process. 30 Specifically, the innovators did not
                have a clear understanding of what qualifies as reportable new technology, at what
                point in the development process they should file New Technology Reports (NTRs),
                or what to expect after they submit an NTR. Moreover, they had not received
                training on the New Technology Reporting process. Taken together, these
                deficiencies result in less reporting of new technologies and missed opportunities for
                transfer and commercialization of NASA innovations.

                In addition, NASA is not fully utilizing the NTRs that innovators submit. Fifty
                percent of all NTRs filed from FY 2004 through FY 2011 are stored in a database
                that is not accessible to most NASA and contract personnel. A reduction of funding
                and personnel has hindered the ability of Patent Counsel to timely review and
                disposition NTRs. As a result, there has been a marked decrease in the number of
                patents and NASA and contract personnel cannot easily share this information or
                benefit from the technology development efforts of others.


Personnel Lack Awareness of the New Technology Reporting
  Process

     NASA’s goal for new technology is to provide the widest practicable and appropriate
     dissemination to assure early utilization, expeditious development, and continued
     availability of NASA-developed technology for the benefit of the U.S. scientific,
     industrial, and commercial communities and the public. 31 Many commercially valuable
     technological advances have resulted from innovations developed as a result of NASA
     projects and programs, such as fiber optics for real-time monitoring of aircraft structural
     strain during flight and software programs for monitoring shipments of hazardous or
     otherwise sensitive materials.

     Another benefit of promoting new technologies is that NASA and the employee may
     receive royalties or other payments from licensing of patented technologies. NASA
     distributes a percentage of royalties it receives to the innovator responsible for
     developing the new technology. The balance remaining is available to the Agency.



     30
          While NASA innovators are predominately researchers, engineers, or designers, they can be anyone who
          creates a new technology as part of their NASA work.
     31
          National Aeronautics and Space Act of 1958, Pub. L. 85-568, 72 Stat. 426 (1958).



12                                                                                       REPORT NO. IG-12-013
RESULTS



  NASA must be able to identify and monitor technologies and assert intellectual property
  rights when appropriate. Therefore, NASA policy states that each employee who makes
  an invention is required to submit a disclosure of such invention. 32 Similarly, contractors
  are required to make timely disclosures and identify all new technologies and innovations
  to NASA if their funding agreements contain new technology or patent rights clauses. 33
  New technologies and innovations can be reported by filing either the web-based version
  (NASA e-NTR) or the paper version of NASA Form 1679. Contractors may also use
  their company’s invention disclosure form.

  NASA’s New Technology Reporting process can be divided into three steps:

         1. Innovators complete and submit an NTR (or similar form);
         2. New Technology Representative reviews the NTR for completeness; and
         3. New Technology Representative enters the NTR into the NASA Technology
            Transfer System (NTTS) database.

  NTRs are important legal documents because they protect the Government’s intellectual
  property rights associated with the technology. Accordingly, an NTR should contain
  sufficient technical detail to convey a clear understanding of the nature, purpose,
  operation, and physical, chemical, biological, or electrical characteristics of the invention
  or innovation. NTRs can result in new patents, software releases, or publication in a
  technical journal.

  We randomly selected 36 NTRs submitted to NTTS since FY 2009 and interviewed the
  innovators who created the technologies described in them. 34 Of the 36 innovators we
  interviewed, none had a firm understanding of the New Technology Reporting process.
  Specifically, the innovators did not have a clear sense of what constituted reportable new
  technologies, when they should disclose new technologies, or what to expect after
  submitting an NTR. In addition, none had received training from NASA on the New
  Technology Reporting process. Table 1 summarizes the results of our interviews.




  32
       NASA Policy Directive 2091.1B, “Inventions Made By Government Employees,” April 21, 2008.
  33
       Contractors are required to submit NTRs within 2 months of the innovator disclosing a new technology,
       interim reports every 12 months, and a final report prior to contract closeout that documents all new
       technologies or certifies that none were created.
  34
       Eight of these NTRs had been submitted by someone other than the innovator, in some cases without the
       innovator’s knowledge.



REPORT NO. IG-12-013                                                                                           13
                                                                                                        RESULTS




                                   Table 1. Results of Innovator Interviews

                                                        Saw No           Unclear on        Received No
                       Number of        Received        Value in          When to         Response after
                       Innovators       No NTR          Filing an        Submit an        Submitting an
       Center         Interviewed       Training          NTR              NTR                NTR
      Ames                 9                9               2               7                 6
      Dryden              10               10               1               9                 3
      Goddard              8                8               0               4                 4
      Johnson              9                9               3               3                 2
       Total              36               36               6              23                15

     As noted in Table 1, none of the innovators received training in the NTR process, 6 did
     not see the value of filing an NTR, 23 were not clear when an invention should be
     disclosed, and 15 received no response after submitting their NTRs. Those innovators
     expressed concerns over a lack of feedback regarding their submissions. Some likened
     the NTR process to a “black hole” and stated that once a report is submitted it is “never
     seen again.” One of the innovators said he felt discouraged from filing additional NTRs
     and another stated that he only filed an NTR because it was a contractual requirement.
     We concluded from these interviews that innovators are less likely to file NTRs if they do
     not understand the value of the NTR process.

     Lack of training and understanding of the value of filing an NTR may result in some new
     technologies not being reported. Consequently, the Agency may not be maximizing the
     full potential of its research and development efforts related to transferring technology.
     Furthermore, the Agency and innovators may be losing royalty income from licensing
     patents from NASA-funded inventions.


New Technology Reports Are Inaccessible

     Of the 12,644 NTRs submitted by civil service and contractor personnel from FY 2004
     through FY 2011, 6,396 NTRs (50 percent) are categorized as inactive and currently
     reside in a repository in NTTS. According to IPO personnel, inactive NTRs may
     eventually result in Tech Briefs articles or software releases. However, they could not
     articulate for us the difference between inactive NTRs that were published or released
     and those that were not. Based on summary data for all NTRs submitted since 1959,
     15,092 out of the 52,393 NTRs submitted (29 percent) did not result in patents, Tech
     Briefs articles, or software and technology releases in NASA TechFinder. 35 These NTRs
     remain in NTTS, and only IPO personnel and Patent Counsel have access to them.


     35
          NASA TechFinder is a website (http://technology.nasa.gov/) that enables the public to search for
          information on technology and licensing opportunities of NASA technologies (accessed February 29,
          2012).



14                                                                                      REPORT NO. IG-12-013
RESULTS



  However, these NTRs could still contain information beneficial to other program and
  project managers and innovators.

  The NTR provides the IPO and Patent Counsel an opportunity to determine the
  appropriate owner(s) of the reported technology and determine whether it is necessary to
  protect it as NASA intellectual property. What qualifies as new technologies and
  innovations is very broad and includes any new and useful processes, machines,
  manufacture, or compositions of matter. It also includes computer programs, whether or
  not they are copyrightable. However, based on the commercial and market readiness
  level, some of the new technologies might not be feasible for patent application. The
  current practice of NTR review focuses on technologies that have NASA intellectual
  property rights and potential patentability.

  In accordance with 15 U.S.C. § 3710d, Employee Activities, if NASA has determined
  that the Government has insufficient interest in obtaining patent protection or in
  otherwise promoting the commercialization of an invention, NASA shall provide the
  innovator an opportunity to obtain or retain title to the invention. If the innovator decides
  not to retain ownership, then NASA can make the information in the NTR available to
  the public, including other NASA and contractor employees. Releasing the information
  publicly requires both the IPO and Patent Counsel’s concurrence. If NASA does not
  make the information in the NTR available, then it remains largely inaccessible in NTTS.

  As shown in Table 2, innovators submitted 1,631 NTRs in FY 2011. During this same
  period, NASA filed 82 patent applications, 99 patents were issued, and 1,061 NTRs were
  reviewed and categorized as inactive. 36 Inactive status indicates that the technology did
  not result in a patent. We are concerned about the relatively high number of inactive
  NTRs because they may contain valuable information that could be of benefit to other
  NASA innovators and project managers.




  36
       The disparity in yearly totals is due to NTR reviews and patent applications crossing over from year to
       year.



REPORT NO. IG-12-013                                                                                             15
                                                                                           RESULTS




                          Table 2. NASA NTR and Patent Filing Summary

                                         NTRs                       Patents
                     Fiscal
                     Year        Submitted     Inactive        Filed     Issued
                     2004         1,666          602            131        109
                     2005         1,720          500            135         78
                     2006         1,739          864            127         73
                     2007         1,533          762            109         66
                     2008         1,343        1,171            117         73
                     2009         1,395          878            115         86
                     2010         1,617          558              98        87
                     2011         1,631        1,061              82        99

     For example, an NTR was filed in February 2010 for a solar thermoelectric power system
     for renewable power generation. The technology described a way to generate recyclable,
     non-toxic, on-demand solar energy that was lower in cost than solar panels currently in
     use and worked during off-peak hours without the use of batteries. NASA did not pursue
     a patent on this technology because the system was never fully developed or tested.
     Although this technology was not mature and may not have commercial potential in its
     present state, the NTR may still contain valuable information that could encourage
     further technology development and advancement. At the time of our review, the NTR’s
     status was inactive and it was not available to the public. Retaining this information in an
     underutilized and largely inaccessible repository hinders NASA’s ability to disseminate
     or utilize information from these reports.

     We also found that NASA’s process for deciding how to disposition an NTR, which
     requires coordination between the Center IPOs and Patent Counsel, suffers from a lack of
     resources. Specifically, the number of patent attorneys has decreased from 29 to 19 over
     the last 9 years. This reduction hinders Counsel’s ability to review and disposition the
     NTR for public release or filing for patent applications.

     In addition, as Table 3 shows, funding for technology transfer has decreased 66 percent
     from $60 million in FY 2004 to $20.5 million in FY 2011. Funding further decreased to
     $19.2 million in FY 2012.




16                                                                            REPORT NO. IG-12-013
RESULTS




          Table 3. NASA NTR and Patent Filing Status at the End of Each Fiscal Year
                     and Fiscal Year Technology Transfer Funding Levels
                                 Cumulative
                                NTRs Awaiting/         Patent                  Technology
                 Cumulative       Preparing          Application                Transfer
                 NTRs under        Patent              under         Patent     Funding
   Fiscal Year   Evaluation      Application         Prosecution      Filed     (million)
   2004             585             6                    20              131     $60.00
   2005             654             6                    28              135     $45.30
   2006             725             7                    41              127     $38.25
   2007             844            11                    81              109     $26.60
   2008           1,017            14                   140              117     $38.10
   2009           1,493            26                   322              115     $23.60
   2010           1,504            30                   296               98     $20.54
   2011           1,878            34                   372               82     $20.54

  Over the same period, the number of NASA patents filed decreased by 37 percent, from
  131 to 82, and the number of NTRs waiting to be evaluated increased 221 percent, from
  585 to 1,878. Insufficient resources and inaccessible information in inactive NTRs
  jeopardizes NASA’s ability to meet its technology transfer and commercialization goals
  and maximize the dissemination and use of technology funded and developed by NASA.


Conclusion

  Although NASA has established a New Technology Reporting process to track NASA
  innovations and inventions, a lack of training and understanding of the value of NTRs
  may have resulted in new technologies not being reported. In addition, a reduction of
  resources has resulted in an inability to timely review NTRs, resulting in a large number
  remaining categorized as inactive and consequently rendering this information largely
  inaccessible to other NASA personnel. Therefore, the Agency may not be realizing the
  full potential of its research and development efforts related to transferring and
  commercializing technology. It is important that innovators know, protect, and exercise
  their rights relating to inventions, discoveries, improvements, and innovations made in
  the performance of their Federal work. Ensuring that innovators have a working
  knowledge of NASA’s New Technology Reporting process increases the likelihood that
  newly developed innovations and inventions will be made available to the public, which
  could foster commercial use of these technologies.




REPORT NO. IG-12-013                                                                          17
                                                                                        RESULTS



Recommendations, Management’s Response, and Evaluation of
  Management’s Response

For NASA to maximize the potential of its research and development efforts related to
transferring technology and meet the requirements of the October 2011 Presidential
Memorandum, we made the following recommendations to the Chief Technologist.

Recommendation 4. Reassess the fiscal and personnel resources available for supporting
the technology transfer and commercialization process and provide sufficient resources to
meet requirements.

     Management’s Response. The Chief Technologist concurred, stating that his office will
     conduct a “zero base” review of the personnel and funding requirements needed to
     implement the updated technology transfer and commercialization requirements and will
     assess whether fiscal and personnel resources are aligned with and adequate to meet the
     updated requirements. He expects to complete this action by October 1, 2012.

     Evaluation of Management’s Response. Management’s proposed actions are
     responsive; therefore, the recommendation is resolved and will be closed upon
     completion and verification of the corrective actions.

Recommendation 5. Provide periodic training to project managers and innovators about
the New Technology Reporting process. The training should cover the value of filing an
NTR, the proper time to disclose an NTR, what happens after an NTR is submitted, and the
possible outcomes of an NTR.

     Management’s Response. The Chief Technologist concurred, stating that his office will
     incorporate training on the New Technology Reporting process into the requirements of
     an updated NPR 7500.1 and develop training materials by July 1, 2012, with
     implementation planned across all Centers by October 1, 2012.

     Evaluation of Management’s Response. Management’s proposed actions are
     responsive; therefore, the recommendation is resolved and will be closed upon
     completion and verification of the corrective actions.

Recommendation 6. Coordinate with the General Counsel to have the Center IPOs and
Patent Counsel expeditiously review all NTRs, including those that do not result in patents
or NASA publication articles, so that they can be made easily accessible to NASA
employees and contractors as appropriate.

     Management’s Response. The Chief Technologist concurred, stating that his office will
     work with the Office of General Counsel to determine whether, within the limitations of
     current budget constraints, existing legal impediments to the release of such information
     can be adequately addressed and modifications of NTTS to permit the segregation of
     restricted information can be accomplished. Collaboratively, they will also strive to
     improve the accessibility of reported, but unpatented technologies. The Chief


18                                                                        REPORT NO. IG-12-013
RESULTS



  Technologist will include these considerations as part of his overall review of available
  fiscal and personnel resources as described under Recommendation 4 and expects the
  action to be completed by July 20, 2012.

  Evaluation of Management’s Response. Management’s proposed actions are
  responsive; therefore, the recommendation is resolved and will be closed upon
  completion and verification of the corrective actions.




REPORT NO. IG-12-013                                                                          19
APPENDIXES




                                                                         APPENDIX A


Scope and Methodology

  We performed this audit from March 2011 through February 2012 in accordance with
  generally accepted government auditing standards. Those standards require that we plan
  and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
  basis for our findings and conclusions based on our audit objectives. We believe that the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  our audit objectives.

  We performed our fieldwork at NASA Headquarters, Ames Research Center, Dryden
  Flight Research Center, Goddard Space Flight Center, and Johnson Space Center. We
  conducted interviews with the NASA Chief Technologist, Headquarters IPO Director, the
  Centers’ Chief Technologists, and Centers’ IPO officials to obtain an understanding of
  the Space Technology Program. We obtained a list of spaceflight and aeronautic research
  and development projects, technology demonstration projects, and non–research and
  development projects in engineering and science. We judgmentally selected 21 of the
  164 projects based on research areas and project phases. We interviewed project
  managers to determine if Commercialization Plans had been developed and, if so, were
  they monitored and updated during the life cycle of the project.

  In addition, we obtained access to NTTS and performed a comparative analysis of each
  Center’s New Technology Reporting history. We obtained a list of all NTRs from the
  past 3 years and randomly selected a sample of 36 NTRs from the 2,034 that had been
  submitted (using WinSTAT, a statistics “add-in” program in Microsoft Excel) to
  determine if NASA had provided sufficient oversight and resources to promote and report
  inventions. We also interviewed the 36 innovators responsible for developing the
  technologies described in those NTRs.

  To accomplish our objective, we also reviewed the following:

      •   15 U.S.C. 3701 et seq., Stevenson-Wydler Technology Innovation Act of 1980
          (Pub. L. 96-480)

      •   NASA Policy Directive 2091.1B, “Inventions Made By Government Employees,”
          April 21, 2008

      •   NASA Policy Directive 7500.2B, “NASA Innovative Partnerships Program,”
          July 17, 2009

      •   NPR 7120.5D, “NASA Program and Project Management Processes and
          Requirements,” March 6, 2007


REPORT NO. IG-12-013                                                                          21
                                                                                         APPENDIX A



        •   NPR 7120.8, “NASA Research and Technology Program and Project
            Management Requirements,” February 5, 2008

        •   NPR 7500.1, “NASA Technology Commercialization Process w/ Change 1
            (4/9/04)”

     Use of Computer-Processed Data. We used data from NTTS to perform this audit.
     Although we did not test the general or application controls of NTTS, we did compare the
     information in the key data fields with our sample of NTRs and supporting documents for
     the data and determined that the data was valid and reliable to support our objectives and
     conclusions.


Review of Internal Controls

     We reviewed internal controls for NASA’s identification of and planning for technology
     transfer and commercialization processes. The control weaknesses we identified are
     discussed in this report. Our recommendations, if implemented, will correct the
     identified control weaknesses.


Prior Coverage

     During the last 5 years, the Government Accountability Office (GAO) has issued one
     report of particular relevance to the subject of this report: “Clearer Priorities and Greater
     Use of Innovative Approaches Could Increase the Effectiveness of Technology Transfer
     at Department of Energy Laboratories” (GAO-09-548, June 2009). Unrestricted GAO
     reports can be accessed over the Internet at http://www.gao.gov.




22                                                                            REPORT NO. IG-12-013
APPENDIX B




                       MANAGEMENT COMMENTS




REPORT NO. IG-12-013                         23
              APPENDIX B




24   REPORT NO. IG-12-013
APPENDIX B




REPORT NO. IG-12-013   25
              APPENDIX B




26   REPORT NO. IG-12-013
APPENDIX B




REPORT NO. IG-12-013   27
                                                                               APPENDIX C




                                                       REPORT DISTRIBUTION

National Aeronautics and Space Administration

     Administrator
     Deputy Administrator
     General Counsel
     Chief Engineer
     Chief Technologist
     Manager, Innovation and Strategic Partnerships
     NASA Advisory Council’s Audit, Finance, and Analysis Committee
     Director, Ames Research Center
     Director, Dryden Flight Research Center
     Director, Goddard Space Flight Center
     Director, Johnson Space Center

Non-NASA Organizations and Individuals

     Office of Management and Budget
        Deputy Associate Director, Energy and Science Division
            Branch Chief, Science and Space Programs Branch
     Government Accountability Office
        Director, NASA Financial Management, Office of Financial Management and
           Assurance
        Director, NASA Issues, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

     Senate Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     Senate Committee on Commerce, Science, and Transportation
        Subcommittee on Science and Space
     Senate Committee on Homeland Security and Governmental Affairs
     House Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     House Committee on Oversight and Government Reform
        Subcommittee on Government Organization, Efficiency, and Financial Management
     House Committee on Science, Space, and Technology
        Subcommittee on Investigations and Oversight
        Subcommittee on Space and Aeronautics



28                                                                    REPORT NO. IG-12-013
Major Contributors to the Report:
   Raymond Tolomeo, Director, Science and Aeronautics Research Directorate
   Ronald M. Yarbrough, Project Manager
   Jiang Yun Lu, Team Lead
   Simon Chan, Management Analyst
   Noreen Khan-Mayberry, Ph.D., Technical Evaluator




REPORT NO. IG-12-013                                                         29
                                                                                        MARCH 1, 2012
                                                                        REPORT No. IG-12-013




                                                                                 OFFICE OF AUDITS

                                                                 OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY12/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
